{-tE
o
      ~ Slt\VlCE.r
    ,,~          ."....
                          DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                      Office of Inspector General
                                                                                                      Office of Audit Services




~+;+.t:::j APR              0 6 2009                                                                  Region VII
                                                                                                      601 East 12th Street
                                                                                                      Room 0429
                                                                                                      Kansas City, Missouri 64106
                      Report Number: A-07-09-00306

                      Ms. Karen Abraham

                      Senior Vice President, Finance and Administration

                      Blue Cross Blue Shield of Arizona

                      P.O. Box 13446

                      8220 North 23 rd Avenue

                      Phoenix, Arizona 85021


                      Dear Ms. Abraham:

                      Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                      General (OIG), final report entitled "Review of the Pension Segmentation Requirements for the
                      Qualified Pension Plan at Blue Cross Blue Shield of Arizona, a Terminated Medicare Contractor,
                      for the Period January 1,2005, to September 30,2006." We will forward a copy of this report
                      to the HHS action official noted on the following page for review and any action deemed
                      necessary.

                      The HHS action official will make final determination as to actions taken on all matters reported.
                      We request that you respond to this official within 30 days from the date of this letter. Your
                      response should present any comments or additional information that you believe may have a
                      bearing on the final determination.

                      Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                      available to the public to the extent that information in the report is not subject to exemptions in
                      the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                      If you have any questions or comments about this report, please do not hesitate to call me at
                      (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                      through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00306
                      in all correspondence.

                                                                    Sincerely,



                                                                    Patrick J. Cogley
                                                                    Regional Inspector General
                                                                     for Audit Services

                      Enclosure
Page 2 – Ms. Karen Abraham


Direct Reply to HHS Action Official:

Mr. Timothy Hill, Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF THE PENSION
 SEGMENTATION REQUIREMENTS
FOR THE QUALIFIED PENSION PLAN
 AT BLUE CROSS BLUE SHIELD OF
     ARIZONA, A TERMINATED
MEDICARE CONTRACTOR, FOR THE
   PERIOD JANUARY 1, 2005, TO
      SEPTEMBER 30, 2006




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-07-09-00306
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov



Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.


 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Arizona (Arizona) administered Medicare Part A operations under a
cost reimbursement contract with the Centers for Medicare & Medicaid Services (CMS) until its
contractual relationship was terminated on September 30, 2006. The effective closing date for
the Medicare segment was September 30, 2006.

Starting with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. Furthermore, the contracts
require Medicare segment pension assets to be updated for each year after the initial allocation in
accordance with Cost Accounting Standards (CAS) 412 and 413. Additionally, in situations
such as contract terminations, the Medicare contracts require contractors to make segment
closing adjustments in order to recognize Medicare’s share of the excess Medicare segment
pension assets and/or liabilities in accordance with CAS 413.

OBJECTIVE

Our objective was to determine whether Arizona complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,

   •   updating the Medicare segment’s pension assets from January 1, 2005, to September 30,
       2006, and

   •   determining Medicare’s share of excess liabilities as a result of the termination of the
       Medicare contracts.

SUMMARY OF FINDINGS

Arizona properly implemented the prior audit recommendation; however, Arizona did not use
the correct total company investment earnings and administrative expenses when allocating the
administrative expenses to the Medicare segment during the period of January 1, 2006, to
September 30, 2006. Arizona identified Medicare segment pension assets of $2,180,138;
however, we determined the Medicare segment pension assets were $2,178,510 as of September
30, 2006. As a result, Arizona overstated the Medicare segment pension assets by $1,628.

In addition, the CAS requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the excess liabilities as a result of the termination of the Medicare contracts.
Arizona did not calculate Medicare’s share of the excess pension liabilities; however, we
calculated Medicare’s share of the excess pension liabilities to be $244,359 as of September 30,
2006.




                                                  i
RECOMMENDATIONS

We recommend that Arizona:

   •   decrease the Medicare segment pension assets by $1,628 as of September 30, 2006, and

   •   recognize $244,359 as Medicare’s share of the Medicare segment excess pension
       liabilities due to the segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, Arizona agreed with our recommendations. Arizona’s
comments are included in their entirety as Appendix C.




                                             ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.....................................................................................................................1

          BACKGROUND ............................................................................................................1
              Blue Cross Blue Shield of Arizona.....................................................................1
              Pension Segmentation.........................................................................................1
              Federal Requirements .........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................................1
               Objective .............................................................................................................1
               Scope...................................................................................................................2
               Methodology .......................................................................................................2

FINDINGS AND RECOMMENDATIONS ...........................................................................3

          PRIOR AUDIT RECOMMENDATION........................................................................4

          UPDATE OF MEDICARE SEGMENT ASSETS .........................................................4
              Federal Requirements .........................................................................................4
              Administrative Expenses Understated ................................................................4

          EXCESS PENSION LIABILITIES................................................................................4
               Cost Accounting Standards.................................................................................4
               Excess Medicare Segment Pension Liabilities as of September 30, 2006..........5
               Medicare’s Share of Excess Medicare Segment Pension Liabilities ..................6

          RECOMMENDATIONS................................................................................................6

          AUDITEE COMMENTS................................................................................................6

APPENDIXES

          A – MARKET VALUE OF PENSION ASSETS FOR THE PERIOD
              JANUARY 1, 2005, TO SEPTEMBER 30, 2006

          B – CALCULATION OF THE AGGREGATE MEDICARE PERCENTAGE

          C – AUDITEE COMMENTS




                                                                    iii
             Glossary of Abbreviations and Acronyms

Arizona   Blue Cross Blue Shield of Arizona
CAS       Cost Accounting Standards
CMS       Centers for Medicare & Medicaid Services
FAR       Federal Acquisition Regulation
OIG       Office of Inspector General




                                 iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Arizona

Blue Cross Blue Shield of Arizona (Arizona) administered Medicare Part A operations under a
cost reimbursement contract with the Centers for Medicare & Medicaid Services (CMS) until its
contractual relationship was terminated on September 30, 2006. The effective closing date for
the Medicare segment was September 30, 2006.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Starting in fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with Cost Accounting Standards (CAS) 412 and 413. Additionally, in situations such as contract
terminations, the Medicare contracts require contractors to make segment closing adjustments in
order to recognize Medicare’s share of the excess Medicare assets and/or liabilities in accordance
with CAS 413. In claiming costs, contractors must follow cost reimbursement principles
contained in the Federal Acquisition Regulations (FAR), CAS, and the Medicare contracts.

Federal Requirements

CAS 412 regulates the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

CAS 413 also regulates the determination of segment assets and liabilities in the event of
contract terminations, segment closings, and/or pension plan terminations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Arizona complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,




                                                1
   •    updating the Medicare segment’s pension assets from January 1, 2005, to September 30,
        2006, and

   •    determining Medicare’s share of excess liabilities as a result of the termination of the
        Medicare contracts.

Scope

We reviewed Arizona’s identification of its Medicare segment, update of Medicare segment
assets from January 1, 2005, to September 30, 2006, and the segment closing calculation as of
September 30, 2006. Arizona’s Medicare contracts were terminated on September 30, 2006. We
used September 30, 2006, the contract termination date, as the settlement date for the contract
termination adjustment.

Achieving our objectives did not require us to review Arizona’s overall internal control structure.
However, we did review controls relating to the identification of the Medicare segment, the
update of the segment’s pension assets, and the determination of the final segment liabilities to
ensure adherence to the Medicare contracts, CAS 412 and 413.

We performed fieldwork at our field office, located in Jefferson City, Missouri, from June 2008
through August 2008.

Methodology

To accomplish our objective, we did the following:

   •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •    We reviewed the information provided by Arizona’s actuarial consulting firm, which
        included the pension plan’s assets, liabilities, normal costs, contributions, benefit
        payments, investment earnings, and administrative expenses. We used this information
        to calculate the Medicare segment pension assets.

   •    We obtained and reviewed the pension plan documents, actuarial valuation reports, and
        Department of Labor/Internal Revenue Service Form 5500s used in calculating the
        Medicare segment pension assets.

   •    We interviewed Arizona staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •    We reviewed Arizona’s accounting records to verify the segment identification and
        benefit payments made to the Medicare segment.

   •    We reviewed the prior segmentation audit performed at Arizona (A-07-06-00207) to
        determine the beginning value of assets.


                                                 2
   •   We provided the CMS Office of the Actuary with the actuarial information necessary to
       calculate the Medicare segment pension assets from January 1, 2005, to September 30,
       2006, and the Medicare segment excess liabilities as of September 30, 2006.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Arizona’s pension costs claimed for
Medicare reimbursement (A-07-09-00307) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Arizona properly implemented the prior audit recommendation; however, Arizona did not use
the correct total company investment earnings and administrative expenses when allocating the
administrative expenses to the Medicare segment during the period of January 1, 2006, to
September 30, 2006. Arizona identified Medicare segment pension assets of $2,180,138;
however, we determined the Medicare segment pension assets were $2,178,510 as of September
30, 2006. As a result, Arizona overstated the Medicare segment pension assets by $1,628.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 2005, to
September 30, 2006, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                       Table 1: Summary of Audit Adjustments
                                            Per OIG     Per Arizona                  Difference
  Prior Audit Recommendation                $1,467,736   $1,467,736                          $0

  Update of Medicare Segment Assets
    Administrative Expenses                    (12,563)                  (10,935)         (1,628)
  Under/(Over)statement of Medicare Segment Pension Assets                               ($1,628)

In addition, the CAS requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the excess liabilities as a result of the termination of the Medicare contracts.
Arizona did not calculate Medicare’s share of the excess pension liabilities; however, we
calculated Medicare’s share of the excess pension liabilities to be $244,359 as of September 30,
2006. Accordingly, we determined that Arizona understated Medicare’s share of the excess
pension liabilities, due to the termination of the Medicare contracts, by $244,359.




                                                 3
PRIOR AUDIT RECOMMENDATION

Arizona properly implemented the prior audit recommendation (A-07-06-00207) which
recommended that Arizona decrease Medicare segment pension assets by $6,070, and recognize
$1,467,736 of Medicare segment pension assets as of January 1, 2005.

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contracts state that “. . . the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. The CAS requires expenses to be allocated among the segments in proportion to
the investment earnings.

Administrative Expenses Understated

Arizona understated administrative expenses by $1,628 for the Medicare segment. This
understatement occurred because Arizona used the total company investment earnings and
administrative expenses for the entire calendar year 2006 (12 months), instead of using the total
company investment earnings and administrative expenses for the period January 1, 2006, to
September 30, 2006 (9 months) when allocating the January 1, 2006, to September 30, 2006,
administrative expenses to the Medicare segment. As a result, Arizona overstated the Medicare
segment pension assets by $1,628.

EXCESS PENSION LIABILITIES

Cost Accounting Standards

CAS 413-50(c)(12), which addresses contract terminations and segment closings, states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs . . . .




                                                4
       (ii) . . . . The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with [48 CFR §] 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

       (iv) Pension plan improvements adopted within 60 months of the date of the event
       which increase the actuarial accrued liability shall be recognized on a prorata
       basis using the number of months the date of adoption preceded the event date.
       Plan improvements mandated by law or collective bargaining agreement are not
       subject to this phase-in.

CAS 413.50(c)(12)(vi) addresses the methodology for determining the Federal Government’s
share of the excess pension liabilities, and states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique.

Excess Medicare Segment Pension Liabilities as of September 30, 2006

Arizona identified $247,286 of excess Medicare segment pension liabilities as of September 30,
2006. However, we calculated $248,914 of excess Medicare segment pension liabilities as of
that same date. (See Table 2.) Therefore, Arizona understated the excess Medicare segment
pension liabilities by $1,628. The understatement occurred because of the adjustment made
during the update of assets related to the administrative expenses, as discussed earlier.




                                                 5
Medicare’s Share of Excess Medicare Segment Pension Liabilities

Arizona did not comply with the Medicare contracts in determining Medicare’s share of the
excess pension liabilities as of September 30, 2006. Arizona did not calculate Medicare’s share
of the excess pension liabilities; however, we calculated that Medicare’s share of the excess
pension liabilities was $244,359. As a result, Arizona understated Medicare’s share of the
excess pension liabilities by $244,359.

We calculated the aggregate Medicare percentage (see Appendix B) and applied it to the
Medicare segment’s excess liabilities to determine the correct amount of Medicare’s share of the
excess liabilities. Table 2 presents the calculation of Medicare’s share of the excess liabilities.

         Table: 2 Calculation of Medicare's Share of the Excess Segment Assets/(Liabilities)

       Medicare Segment Pension Assets as of September 30, 2006                  $2,178,510
       Medicare Segment Actuarial Liabilities as of September 30, 2006            2,427,424
       Excess Medicare Segment Pension Assets/(Liabilities)                        (248,914)
       Aggregate Medicare Percentage                                                 98.17%
       Medicare's Share of Excess Pension Liabilities                             ($244,359)

       Per OIG Amount Due to Arizona                                              ($244,359)
       Amount Reimbursed to Arizona                                                       0
       Difference                                                                 ($244,359)

RECOMMENDATIONS

We recommend that Arizona:

   •    decrease the Medicare segment pension assets by $1,628 as of September 30, 2006, and

   •    recognize $244,359 as Medicare’s share of the excess pension liabilities due to the
        segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, Arizona agreed with our recommendations and stated
that it will work with CMS on settlement of the Final Administrative Cost Proposal for FY 2006
to:

   •    decrease the Medicare segment pension assets by $1,628 as of September 30, 2006, and

   •    recognize $244,359 as Medicare’s share of the Medicare segment excess pension
        liabilities due to the segment closing calculations.

Arizona’s comments are included in their entirety as Appendix C.


                                                 6
APPENDIXES
                             Blue Cross Blue Shield of Arizona                        APPENDIX A
                        Statement of Market Value of Pension Assets                     Page 1 of 2
                                       For the Period
                           January 1, 2005, to September 30, 2006

              Description                  Total Company      Other Segment         Medicare

  Assets January 1, 2005              1/      $88,800,584        $87,332,848          $1,467,736

  Prepayment Credits                  2/                0            (295,693)           295,693
  Contributions                       3/       11,941,123          11,941,123                  0
  Earnings                            4/        7,015,215           6,871,424            143,791
  Benefit Payments                    5/       (5,534,206)         (5,534,206)                 0
  Expenses                            6/         (338,536)           (331,597)            (6,939)
  Transfers                           7/                0              75,070            (75,070)

  Assets January 1, 2006                      101,884,180        100,058,969           1,825,211

  Prepayment Credits                                     0           (227,070)           227,070
  Contribution                                           0                  0                  0
  Earnings                                       6,432,376          6,300,523            131,853
  Benefit Payments                              (3,529,544)        (3,529,544)                 0
  Expenses                                        (274,385)          (268,761)            (5,624)

  Assets September 30, 2006                  $104,512,627       $102,334,117          $2,178,510
  Per Arizona                         8/     $104,512,627       $102,332,489          $2,180,138
  Asset Variance                      9/               $0             $1,628             ($1,628)

  FOOTNOTES

1/ We determined the Medicare segment pension assets as of January 1, 2005, based upon our
   prior segmentation audit (A-07-06-00207). The amounts shown for the Other segment represent
   the difference between the Total Company and the Medicare segment. All pension assets are
   shown at market value.

2/ Prepayment credits represent funds available to satisfy future funding requirements and are
   applied to future funding requirements before current year contributions. Prepayment credits
   are maintained in the Other segment and transferred to the Medicare segment as needed to cover
   funding requirements.

3/ We obtained Total Company contribution amounts from the actuarial valuation reports and
   Department of Labor/Internal Revenue Service Form 5500s. We allocated Total Company
   contributions to the Medicare segment based on the ratio of the Medicare segment funding
   target divided by the Total Company funding target. Contributions in excess of the funding
   targets were treated as prepayment credits and accounted for in the Other segment until needed
   to fund pension costs in the future.
                             Blue Cross Blue Shield of Arizona                         APPENDIX A
                        Statement of Market Value of Pension Assets                      Page 2 of2
                                       For the Period
                           January 1, 2005, to September 30, 2006

4/	 We obtained investment earnings from actuarial valuation reports. We allocated investment
    earnings based on the ratio of the segment's weighted average value (WAV) of assets to Total
    Company WA V of assets as required by the Cost Accounting Standards (CAS).

5/	 We based the Medicare segment's benefit payments on actual payments to Medicare retirees.
    Blue Cross Blue Shield of Arizona (Arizona) provided us with supporting documentation for
    the benefit payment amounts made to plan retirees.

6/	 We allocated administrative expenses to the Medicare segment in proportion to investment
  earnings.

7/ We identified participant transfers between segments based on the participant data files
   provided by Arizona's actuarial consulting firnl. Asset transfers were equal to the accrued
   actuarial liability determined under the accrued benefit cost method in accordance with the
   CAS.

8/ We obtained the asset amounts as of September 30, 2006, prior to the transfer adjustment,
   from the actuarial valuation report prepared by Arizona's actuarial consulting firm.

9/ The asset variance represents the difference between our calculation of Medicare segment
   pension assets and Arizona's calculation of the Medicare segment pension assets.
                          Blue Cross Blue Shield of Arizona                 APPENDIX B
                  Calculation of the Aggregate Medicare Percentage


                    Medicare Segment
                     Pension Costs    Total Medicare      Aggregate
                        Claimed          Segment          Medicare
    Fiscal Year       for Medicare    Pension Costs      Percentage1
       1991                      $239           $246
       1992                         0              0
       1993                         0              0
       1994                    66,122         66,979
       1995                    20,890         22,326
       1996                         0              0
       1997                         0              0
       1998                         0              0
       1999                         0              0
       2000                    31,342         32,604
       2001                   106,525        109,167
       2002                   144,274        146,829
       2003                   202,952        205,646
       2004                   240,933        245,175
       2005                   280,967        284,870
       2006                   294,732        300,993
                                                                        2
       Total               $1,388,976     $1,414,835        98.17%

1
 The aggregate percentage was based on the audited pension costs as
determined during the pension audits related to the Arizona Medicare
segment. The information for fiscal years (FY) 1991 - 2005 was obtained
during our prior audit (A-07-06-00216). The information for FY 2006
was obtained during the current review (A-07-09-00307).

2
 We calculated the aggregate Medicare percentage by dividing the
Medicare segment pension costs claimed for Medicare reimbursement
(numerator) by the total Medicare segment pension costs (denominator)
pursuant to CAS 413.
APPENDIX C
